Audit Report



Return
    to the USDOJ/OIG Home Page




Missing Children's Assistance Award Administered by the Fox Valley Technical College Award Number 98-MC-CX-K003

Report No. GR-50-04-002


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Missing Children's Assistance grant, including supplements, awarded by the U.S. Department of Justice, Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention, to the Fox Valley Technical College (the College), located in Appleton, Wisconsin.  The purpose of this grant is to provide training and technical assistance to individuals and organizations involved in aiding and responding to missing and exploited children and their families.  As of April 2, 2002, the College was awarded a total of $2,298,701 to train state and local law enforcement officers through a training course entitled Responding to Missing and Abducted Children.
We tested the College's accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Of the $1,867,155 expended as of September 30, 2002, we tested transactions totaling $423,608 and found that the grantee was generally in compliance with the grant conditions tested.  However, we question $15,768 in grant funds received related to unapproved wages and fringe benefits and unauthorized equipment purchases.1  In addition, we found that the College did not maintain an accurate and complete inventory of accountable property purchased with grant funds.
Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

See Appendix II for a schedule of our dollar-related findings and for a definition of questioned costs.